                                                                                                   I'




                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          An internal review of the Government Travel Credit Card Program by the National Science
          Foundation @SF) Office of Inspector General (OIG) revealed the possibility of unauthorized use
          of the government travel credit card.

                                              '
          A review of the subject employee's travel credit card statement transaction reports, during the
          period 04/05/02 through 7/12/03, reflected multiple cash withdrawals and other charges, totaling
          in excess of $ 1,100 dollars, which did not appear to be associated with official government


          During OIG's interview of the subject employee, she acknowledged unauthorized use of the
          government travel credit card, stating that she made $1,102.34 in cash withdrawals and other
          charges in emergency situations when she had no money. The travel credit card statements
          indicated that the subject employee paid the bill in full and on time each month.

          NSFIOIG referred this case to the United States Attorney's Office, Eastern District of Virginia
          who declined prosecution in lieu of agency administrative action.

          OIG's referral to NSF resulted in the subject employee receiving counseling from her supervisor.
          The confirmation of counseling is attached and constitutes part of this closeout document.

          Accordingly, this case is closed




NSF OIG Form 2 (1 1/02)
'MEMORANDUM

DATE:           June 25,2004

TO:

FROM:

SUBJECT:        Confirmation of Counseling


This correspondence is to confirm our conversation in which we discussed your misuse of your
Government Travel Credit Card.

 On April 19,2004, the Office of the Inspector General, National Science Foundation issued the
results of their investigation into Government Travel Credit Card delinquency and misuse. In it,
a detailed review was conducteaon the activity of your account. The review showed multiple
ATM withdrawals, and other charges to your travel card made during times when you were not
on official travel. Therefore, your use of the card on these occasions was unauthorized. As we
discussed, the government travel card is only for appropriate business use while on official travel.

          you are a valued member of our staff, and your contributions make a difference. From
our conversation on this matter, I am confident that you understand the appropriate use of the
Government Travel Credit Card, and I do not believe any further action to be necessary. I am
issuing this memo to confirm that we had a discussion on this matter, and that I am satisfied with
its outcome. However, please understand that repetition of this misconduct may result in more
severe administrative action taken against you. This document will not be filed in your Official
Personnel Folder, as it is considered to be an informal memorandum,
